                                           NA TIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

Case Number: 109030016                                                             Page I of I



     This investigation was opened pursuant to an allegation that a Director! at a University2
     has been overcharging an NSF Award3 for work done by hourly employees; that if an employee
     works one hour, the Director will charge up to 20 times what the employee actually worked.

     Records were reviewed and no evidence was found indicating overcharges for hourly employees.
     Since the allegation was not substantiated, no further action will be initiated.

     This case is closed.
